Report No. DODIG-2013-074            April 29, 2013




          Special Plans and Operations



   Assessment of Voting Assistance Programs

            for Calendar Year 2012
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                    April 29, 2013


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                             READINESS
                         DIRECTOR, FEDERAL VOTING ASSISTANCE PROGRAM
                         ADJUTANT GENERAL, ARMY
                         INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
                         COMMANDER, NAVY INSTALLATION COMMAND
                         NAVAL INSPECTOR GENERAL
                         DIRECTOR OF AIR FORCE SERVICES
                         INSPECTOR GENERAL OF THE AIR FORCE
                         DEPUTY COMMANDANT OF THE MARINE CORPS FOR
                             MANPOWER AND RESERVE AFFAIRS
                         INSPECTOR GENERAL OF THE MARINE CORPS


SUBJECT: Assessment of Voting Assistance Programs for Calendar Year 2012
            (Project No. D2013-DOOSP0-0053.000, Report no. DODIG-2013-074)


We are providing this final report for information and use. We considered client comments in
response to a draft of this repmi when preparing the final repmt.


We request additional comments and information by May 30, 2013, as follows:


   •   Commander, Navy Installation Command- Recommendation 4, and


   •   Director of Air Force Services- Recommendation 4.


Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the I Signed I symbol in place of the actual signature. If
you arrange to send classified documents electronically, they must be sent over the SECRET
Internet Protocol Router Network (SIPR).


We appreciate the courtesies extended to the staff. Please direct questions to SPO@dodig.mil.
We will provide a formal briefing if management requests.




                                                  Dep ty Inspector General
                                                     Special Plans & Operations
This Page Intentionally Left Blank
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


                Results in Brief: Assessment of
                Voting Assistance Programs for
                Calendar Year 2012
What We Did.
Section 1566, title 10, United States Code, (10 U.S.C. § 1566 (c) (3), [2006]) “Voting assistance;
compliance assessments; assistance” requires the Department of Defense Inspector General to
continually assess voting assistance and to report to Congress at least annually on:
   • the level of compliance during the preceding calendar year with voting assistance
       programs of each of the Army, Navy, Air Force, and Marine Corps; and
   • the effectiveness, during the preceding calendar year, of voting assistance programs.

What We Found.
    •   We observed that the Army, Navy, Air Force, and Marine Corps did have functioning
        Voting Assistance Programs, had persons assigned to appropriate Voting Assistance
        Program duties, conducted regular oversight of their Voting Assistance Programs,
        identified deficiencies and areas for improvement, and implemented corrective actions.
        Therefore, we concur with the Service Inspectors’ General determinations that their
        respective Service complied with Voting Assistance Program statutes and regulations.
    •   We found, however, that the Federal Voting Assistance Office and Military Services had
        not applied clearly defined voting assistance program goals and metrics to be able to
        evaluate their program effectiveness.
    •   We noted several issues affecting execution of Voting Assistance Programs, such as
        potential staffing overlaps, outdated regulations, and accommodation of new
        technological advances to provide information.
    •   We also found that the Military Services did not define an “installation” for the purpose
        of providing appropriate voting assistance to Service members through the establishment
        of an Installation Voting Assistance office.

What We Recommend.
    •   That the Military Senior Service Voting Representatives:
        o periodically assess the means by which Service members request voting assistance as
           well as the impact of the use of information technology, and revise Service Voting
           Assistance Officer staffing requirements accordingly; and
        o revise their Voting Assistance Program policies, regulations, staffing requirements,
           and definition of an installation for the purposes of providing voting assistance.
    •   The DoD Federal Voting Assistance Program Office:
        o enhance performance goals and performance indicators for annual assessment of
           voting assistance activities and their effect on Service member voter participation;
           and
        o provide guidance to the Military Services regarding their measurement of voting
           assistance program performance goals and indicators.




                                                       i
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013

Management Comments
The Office of the Adjutant General of the Army; the Office of the Commander, Navy
Installations Command; the Secretary of the Air Force Office of the IG; as well as the Office of
the Director, Marine and Family Programs Division, Headquarters, U.S. Marine Corps concurred
with the recommendations.

The Military Services provided documentation to establish compliance with the
recommendations, or provided their plans of action for implementing the recommendations.

The Navy and Air Force stated in their responses to Recommendation 4 that they believed that
their current definitions of an “installation” met the recommendation to develop a definition of
an “installation for the purposes of providing voting assistance.” The Army and the Marine
Corps stated that they would develop a definition of an “installation for the purposes of
providing voting assistance.”

The Federal Voting Assistance Program Office stated that while they agreed with
Recommendation 3.a.1. and 3.a.2., that the collection of metrics to measure effectiveness can be
improved, and they have been working with the Military Services to gather voting assistance
program metrics. They also stated that they are currently engaged with a Federally Funded
Research and Development Center to help define new metrics and refine those currently
collected.

Our Response
We found the comments of the Army, Navy, Air Force, and Marine Corps to be responsive to the
recommendations.

We request that the Office of the Adjutant General of the Army; the Office of the Commander,
Navy Installations Command; and the Director of Air Force Services provide their revised
Service Voting Assistance Program regulations when published.

We found the stated intent of the Army and Marine Corps responses to Recommendation 4, to
define an “installation for the purposes of providing voting assistance,” to be responsive.
However, we found that the responses of the Navy and Air Force regarding their current
definitions of an “installation” did not provide an explanation as to why the Navy and Air Force
do not have an Installation Voter Assistance office on each installation worldwide, in accordance
with “The Military and Overseas Voter Empowerment Act of 2009” and DoD Instruction
1000.04, “Federal Voting Assistance Program.” We request that each of the Military Services
provide to the DoD IG, their Service’s definition of an installation that specifically applies to the
provision of voting assistance, along with its supporting rationale and criteria.

We found that while the Federal Voting Assistance Program Office has been developing metrics,
the focus of those metrics has been to measure activity rather than voting assistance program
performance. We request that the Federal Voting Assistance Program Office provide us with
copies of voting assistance program performance goals and indicators that enable useful
measurement of voting assistance program performance, as well as copies of guidance they
provide to the Military Services regarding voting assistance program performance goals and
indicators.


                                                       ii
Assessment of Voting Assistance Programs for CY 2012         Report No. DoDIG-2013-074          April 29, 2013

Recommendations Table
                                        Recommendations                      No Additional Comments
Client                                  Requiring Comment                    Required
The Adjutant General, Army                                                   1.a., 1.b., 2.a, 2.b., 4

Army Inspector General                                                       3.b.

Commander, Navy Installation            4                                    1.a., 1.b., 2.a, 2.b.
Command

Naval Inspector General                                                      3.b.

Director of Air Force Services          4                                    1.a., 1.b., 2.a, 2.b.

Air Force Inspector General                                                  3.b.

Deputy Commandant of the                                                     1.a., 1.b., 2.a, 2.b., 4
Marine Corps for Manpower and
Reserve Affairs
Marine Corps Inspector General                                               3.b.

DoD Federal Voting Assistance                                                3.a.1, 3.a.2
Program Office

Total Recommendations in this Report: 8

For Recommendations Requiring Comment, please provide comments by May 30, 2013.




                                                       iii
Assessment of Voting Assistance Programs for CY 2012   Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank
Assessment of Voting Assistance Programs for CY 2012                            Report No. DoDIG-2013-074                         April 29, 2013




Table of Contents
Results in Brief ............................................................................................................................... i
     What We Did.. ........................................................................................................................... i
     What We Found. ........................................................................................................................ i
     What We Recommend. .............................................................................................................. i
     Management Comments ........................................................................................................... ii
     Our Response ............................................................................................................................ ii
     Recommendations Table .......................................................................................................... iii
Introduction ................................................................................................................................... 1
     Purpose...................................................................................................................................... 1
     Background ............................................................................................................................... 1
     Criteria ...................................................................................................................................... 2
         Federal Guidance ............................................................................................................... 2
         DoD Guidance .................................................................................................................... 3
         Service Guidance ................................................................................................................ 3
     Scope and Methodology ........................................................................................................... 4
Military Service VAP Compliance .............................................................................................. 5
     Army Voting Assistance Program Compliance ........................................................................ 5
     Navy Voting Assistance Program Compliance......................................................................... 6
     Air Force Voting Assistance Program Compliance .................................................................. 8
     Marine Corps Voting Assistance Program Compliance ........................................................... 9
Observations ................................................................................................................................ 11
     Observation 1. DoD Staffing Requirements for Unit Voting Assistance Officers ................ 13
        IVAO and UVAO Requirements ........................................................................................ 13
        Role of Social Media in Providing Voting Assistance ...................................................... 13
     Observation 2. Outdated Regulatory Requirements .............................................................. 17
     Observation 3. Lack of Clearly Defined Performance Measures to Assess Effectiveness of
     DoD Voting Assistance Programs .......................................................................................... 21
        Measuring Effectiveness in Achieving Voting Assistance Program Goals....................... 22
     Observation 4. IVA Offices ................................................................................................... 27
        Defining an Installation for the Purposes of Establishing a Voter Assistance Office ...... 27
Appendix A. Prior Report Coverage ........................................................................................ 31
Appendix B. Acronyms .............................................................................................................. 33
Appendix C. Management Comments ..................................................................................... 35
Assessment of Voting Assistance Programs for CY 2012   Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013




Introduction
In this section we will explore the purpose, background, and supporting statutes and regulations
behind the Department of Defense’s Voting Assistance Programs (VAPs). We also identify the
Scope and Methodology used to conduct this assessment.

Purpose
The purpose of this assessment is to assess:

    •   Military Services’ VAPs, and
    •   the portion of Federal Voting Assistance Program (FVAP) Office responsibilities that fall
        within the DoD

for compliance and effectiveness in accordance with the requirements set forth in section 1566,
title 10, United States Code, (10 U.S.C. § 1566 (c) (3), [2006]) “Voting assistance; compliance
assessments; assistance”(10 U.S.C. § 1566). This statute requires the Department of Defense
Inspector General (DoD IG) to continually assess voting assistance and to report to Congress
annually on:

    •   the level of compliance during the preceding calendar year with voting assistance
        programs of the Army, Navy, Air Force, and Marine Corps; and
    •   the effectiveness, during the preceding calendar year, of DoD voting assistance programs.

Background
Department of Defense VAPs include the FVAP Office in the Office of the Under Secretary of
Defense for Personnel and Readiness and the Military Service Voting Assistance Programs.
These voting assistance programs work to provide U.S. citizens worldwide a broad range of non-
partisan information and support to facilitate their participation in the voting process regardless
of where they work or live. The FVAP Office’s mission is to assist Uniformed Services and
overseas voters to exercise their right to vote; assist the States in complying with relevant
Federal laws and advise them on ways to best comply; and advocate on behalf of the Uniformed
Services and overseas voters in identifying impediments to their ability to vote and proposing
methods to overcome those impediments. Military Services’ Voting Assistance Programs utilize
the chain-of-command and installation structure to ensure that Service members and their family
members receive information about absentee voting, including registration and voting
procedures, dates of scheduled elections for Federal offices, points of contact for additional
assistance, and voting materials such as absentee ballots.

Military Inspector General Oversight Responsibilities – 10 U.S.C. § 1566, as amended,
requires the Inspectors General (IGs) of the Army, Navy, Air Force, and Marine Corps to
annually review compliance with their own Service’s VAPs; review the effectiveness of those
programs; and report results to the DoD IG in sufficient time to be assessed in the DoD IG
annual report. In accordance with the law, we received reports from the Army, Navy, Air Force,
and Marine Corps IGs covering calendar year 2012.



                                                       1
Assessment of Voting Assistance Programs for CY 2012         Report No. DoDIG-2013-074             April 29, 2013


Department of Defense Inspector General Oversight Responsibilities – 10 U.S.C. § 1566
also requires the DoD IG to report to Congress not later than March 31 of each year on the
effectiveness of voting assistance programs during the preceding calendar year, and voting
assistance program compliance of the Army, Navy, Air Force, and Marine Corps.

Criteria
Federal Guidance
Chapter 20, title 42, United States Code (42 U.S.C. § 1971 [2012]) “Elective
Franchise.” This chapter provides requirements for elections in the U.S., and states that all
citizens of the United States who are otherwise qualified by law to vote at any election by the
people in any State shall be entitled and allowed to vote at all elections, without discrimination.

        Section 1973gg, title 42, United States Code (42 U.S.C. § 1973gg [2012])
        “National Voter Registration” further expands the concept by stating that Congress
        finds that the right of citizens of the United States to vote is a fundamental right, and it is
        the duty of the Federal, State, and local governments to promote the exercise of that right.
        Two of the purposes of 42 U.S.C. § 1973gg are to establish procedures that will increase
        the number of eligible citizens who register to vote in elections for Federal office, and to
        make it possible for Federal, State, and local governments to implement this subchapter
        in a manner that enhances the participation of eligible citizens as voters in elections for
        Federal office.

        42 U.S.C. §1973ff et seq., was amended by Public Law 99-410, “The Uniformed
        and Overseas Citizens Absentee Voting Act” (UOCAVA) which established
        various programs intended to help Military and eligible overseas voters to register, vote,
        and have their votes counted. Those voting assistance programs affected local and state
        jurisdictions, as well as various Federal entities. The law authorized the Secretary of
        Defense to establish a Federal Voting Assistance Program reporting to the Under
        Secretary of Defense for Personnel & Readiness through the FVAP Director.

        Public Law 111-84, title V, subtitle H, “The Military and Overseas Voter
        Empowerment Act of 2009” (MOVE Act) expanded the Federal election laws to
        provide voter assistance to Service members who may be stationed away from their
        home. 1 It included additional requirements for:

             •   Web site that listed election office contact information for each State;
             •   Ballot collection and delivery;
             •   Voter registration outreach;
             •   VAP reporting; and
             •   Utilization of technology for voting assistance.



1
 Public Law 111-84, title V, subtitle H, of October 28, 2009, subsequently codified as 10 U.S.C. §1566a, and 42
U.S.C. §1973ff et seq.


                                                        2
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


The VAP statutes provide voting assistance to eligible voters that fall into the following
categories:

    1. Service members, absentee Service members (stationed away from home), and spouses
       and dependents of Service members who are of voting age;
    2. absent DoD civilians, Merchant Marine, Public Health service, National Oceanic and
       Atmospheric Administration, and their spouses and dependents who are of voting age;
       and
    3. U.S. citizens (non-military) residing outside of the United States who are of voting age.

When we use the term “Service member,” we mean it to include all of the above groups in the
context of FVAP office responsibilities, and all of the groups, except for U.S. citizen non-
military voters, in the context of Military Service VAP responsibilities.

10 U.S.C. § 1566, as amended, requires the Inspectors General of the Army, Navy, Air Force,
and Marine Corps to annually review compliance of their Service’s voting assistance programs;
review the effectiveness of Military Service VAP and FVAP Office VAP programs; and report
results to the DoD IG in time to be reflected in the DoD IG annual report. Section 1566, title 10
U.S.C. also requires the DoD IG to report to Congress not later than March 31 of each year on
the voting assistance program compliance of the Army, Navy, Air Force, and Marine Corps,
along with the effectiveness of VAPs during the preceding calendar year.

DoD Guidance
DoD Instruction 1000.04, “Federal Voting Assistance Program,” September
13, 2012, (FVAP DoDI) reissued DoD Directive 1000.4 as a DoD Instruction to establish
policy and assign responsibilities for the FVAP in accordance with revisions in the law as
codified in sections 1973ff – 1973ff-7 of title 42, United States Code, also known as UOCAVA.

It established policy and assigned responsibilities for the development and implementation of
Installation Voter Assistance (IVA) offices in accordance with section 1566a, title 10, United
States Code.

It established policy and assigned responsibilities for the development and implementation,
jointly with each State, of procedures for persons to apply to register to vote at recruitment
offices of the Military Services in accordance with 10 U.S.C. § 1973gg-5.

The instruction is applicable to the Office of the Secretary of Defense, all Military Departments,
and the DoD IG, as well as other organizational entities within the DoD. The instruction requires
the Military Service Inspectors General to annually review their voting assistance program and
submit a copy of the report to the DoD IG by January 31.

Service Guidance
Each Uniformed Service has its own voting assistance program to implement the law and DoD
policy. The Service policy documents governing Army, Navy, Air Force, and Marine Corps
voting assistance programs are as follows:



                                                       3
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


    •   Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004, (Army
        VAP regulation);
    •   Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting Assistance
        Program,” May 15, 2007, (Navy VAP regulation);
    •   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10, 2003, (Air
        Force VAP regulation); and
    •   Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,” May
        14, 2002, (Marine Corps VAP regulation).

Scope and Methodology
We conducted this assessment from December 2012 through April 2013 in accordance with our
responsibilities under 10 U.S.C. § 1566, and in accordance with provisions of the Inspector
General Act of 1978, as amended, and the FVAP DoDI.

To accomplish our objectives, we used a continuous assessment methodology to accommodate
the law’s annual reporting requirements. The methodology involves continual risk assessment
based on:

    •   routine and on-going dialog with senior officials and other stakeholders involved in the
        administration of the voting assistance program;
    •   analysis of previous oversight activities and reports issued by the DoD IG, Government
        Accountability Office (GAO), and others (see “Prior Report Coverage”); and
    •   “real-time” feedback to senior officials and other senior stakeholders outside formal or
        traditional reporting mechanisms.

During the current reporting cycle, we reviewed relevant laws, policies, Military regulations, and
other appropriate documents. In accordance with 10 U.S.C. § 1566, we received assessment
reports from the Army, Navy, Air Force, and Marine Corps IGs covering calendar year 2012.
We reviewed the Service IG reports and supporting data, as needed; met with senior IG
representatives from the Army, Navy, Air Force, and Marine Corps; and discussed their data
collection procedures and criteria used as a basis for their conclusions. We did not validate the
information the Service IGs provided. However, we applied alternate qualitative assessment
techniques, such as discussion with senior program officials and knowledgeable personnel. We
had a preliminary meeting with the Federal Voting Assistance Program Director to discuss the
scope of our VAP assessment, and reviewed publicly available reports prepared by the FVAP
Office staff.

For this report, our intent in accordance with 10 U.S.C. § 1566 was to report on the overall
effectiveness of the DoD Voting Assistance Program. In doing so, we sought to view
effectiveness in terms of “results” as opposed to “activity.” Therefore, we defined effectiveness
as the measurable progress the program made in fulfilling its congressionally intended purpose:
to increase voter registration and increase opportunities for voter participation.




                                                       4
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013




Military Service VAP Compliance
Section 1566, title 10, United States Code, requires the Inspectors General of the Army, Navy,
Air Force, and Marine Corps to annually review compliance with their own Service’s voting
assistance programs; review the effectiveness of those programs; and report results to the DoD
IG. The law does not specify how each Service determines the sample size necessary to make a
compliance determination, or the format in which the Services should report their information.
In accordance with the law, we received reports from the Army, Navy, Air Force, and Marine
Corps IGs covering calendar year 2012.

Army Voting Assistance Program Compliance
The Inspector General of the Army issued its “2012 Annual Report of the U.S. Army
Compliance with DoD Federal Voting Assistance Program Requirements in Accordance with
U.S. Code, Title 10, Section 1566” (Army IG 2012 VAP report). Based on a consolidation of
compliance data provided from command IG Army VAP assessments, the Army IG reported that
the Army complied with the VAP in accordance with Army Regulation 608-20, and that the
Army VAP and Installation Voting Assistance Officers (IVAOs) continued to work together to
promote program improvement. The report concluded that the Army VAP encouraged and
enabled each Soldier, Department of Army civilian, family member, and contractor to fully
participate in the American election process.

Each Service determines the sample size necessary to make a compliance determination, and
typically selects a larger sample size in a general election year. This was the case in 2012 when
the Army report represented responses from 1,279 organizations across 17 commands versus its
2011 sample of 196 organizations from 7 commands. The Army’s 2012 survey also included an
additional assessment of 391 organizations within the U.S. Army Recruiting Command related to
voting requirements associated with enlistees. The Army IG developed a standardized
compliance inspection survey tool. This consolidated tool was sent to all of the local IGs as part
of their annual VAP assessment. The Army IG stated that all Army organizations’ VAPs were
assessed annually by the local IG, and that the higher-level, Department of the Army IG
assessment cycle covered every unit every 3 years.

The Army IG reported that based on their analysis, the overall compliance rate for the Army
VAP for 2012 was 88 percent. The Army defined assessment areas as non-compliant if their
aggregate percentage was below 80 percent. The report noted five sub-areas of non-compliance
with Army Regulation 608-20, reporting that these areas had been corrected or were being
addressed.

    •   Communication: Base telephone operators were not always provided the e-mail box and
        telephone number of the IVAO, and installation voting e-mail boxes were not always
        created using the FVAP office standardized format. (41percent compliance rate)
    •   Staffing: Installation commanders did not always ensure Military IVAOs and Unit
        Voting Assistance Officers (UVAOs) duties with respect to the voting program were
        included in their performance evaluations. (71 percent compliance rate up from 51
        percent in 2011)



                                                       5
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


    •   Training: Organizations did not always meet the requirement to train its Voting
        Assistance Officers (VAOs) within 90 days of appointment. (79 percent compliance rate)
    •   Training: Assigned personnel did not always receive or have documented at least one
        briefing, training, or information period of instruction devoted to absentee registration
        and voting during Federal election years. (77 percent compliance rate)
    •   Reporting: IVAOs did not always perform bi-annual staff assistance visits or self-
        inspection of the IVAO using the current voting inspection checklist provided by the
        Service Voting Inspection checklist. (67 percent compliance rate)

Based on overall scoring, the Army IG reported that the Army was compliant in the areas of
personnel, training, communication and information management, material distribution, and
internal controls.

In 2012, the Command IGs conducted targeted teach and train sessions with each Army VAO
that had been identified as deficient during their command inspections. The Army IG reported
that the 2012 increase in compliance percentage reflected the positive corrective action that had
been undertaken to address weaknesses previously reported.

Of note, the Army IG recommended expediting revision of its Army VAP regulation. They also
recommended that the Installation Management Command, in coordination with the Army
Adjutant General, develop a “voting strategic communication program” or senior leader
memorandum to the field emphasizing and reinforcing all aspects of the program to include
training, organizational inspection programs, staff assistance visits, establishment of IVA
Offices, appointment of UVAOs, and the requirement to document voting duties on respective
individual performance evaluations. We believe that these actions, when taken by the Army,
will address the five areas of non-compliance identified in the Army IG 2012 VAP report.

In our review, we noted that the Army IG stated in their report and during briefings that the
Army was in compliance with VAP statutes and regulations. However, they did not indicate
whether the Army VAP was effective. We observed that the Army did have an active VAP,
assigned persons to VAP duties, conducted continual oversight of the VAP, identified areas for
improvement, and took action to implement corrections. Therefore, we concur with the Army IG
determination that the Army was compliant with VAP statutes and regulations. However, we
cannot make a determination regarding the Army VAP effectiveness because the Army did not
provide us sufficient information regarding their performance measures of effectiveness or
methodologies for making such a determination. In observation 3 of this report, we discuss
measuring VAP effectiveness in further detail.

Navy Voting Assistance Program Compliance
The Navy Inspector General issued its “Report of Assessment of the Navy Voting Assistance
Program for CY 2012” (Navy IG 2012 VAP report). The Navy IG stated that the Navy’s VAP
was “compliant” and “effective” with the statutory and regulatory VAP requirements, including
Chief of Naval Operations Instruction 1742.1B, “Navy Voting Assistance Program.”

The Navy IG 2012 VAP report stated that the Navy IG “used a triangulation methodology
during CY 2012’s scheduled area visits and command inspections to independently assess


                                                       6
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


compliance…Methods included web-based surveys, on-site interviews with VAOs, and program
reviews. The Self-Assessment Checklist for Voting Assistance Officers [a Navy-developed
checklist] guided the inspection process.” The Navy IG stated that the Senior Navy Voting
Representative reviewed a sample of approximately 70 percent of all Navy commands through
its Voter Information Management System.

The Navy IG 2012 VAP report stated that the Navy IG assessed the program’s compliance and
effectiveness using:

    •   Voting Information Management System data collection, an overall Navy VAP
        compliance assessment using “direct findings from three inspections and three
        geographic area visits, which included assessments of multiple commands across
        echelon, down to echelon five [unit level];
    •   “qualitative determination of program effectiveness” from “Web-based survey results;”
        and
    •   review of “Navy VAP initiatives” which included outreach and voting assistance
        campaigns, command Web sites, public relations and media efforts, and leadership
        emphasis.

The Navy IG 2012 VAP report noted “minor discrepancies” against its Service-specific VAP
requirements.

    •   Communication: Base telephone operators were not always provided the e-mail and
        telephone number of the IVAO (most bases do not have telephone operators).
    •   Command emphasis: Not all Echelon II and command level evaluations were being
        performed, retained, and submitted in accordance with Chief of Naval Operations
        Instruction 1742.1B.
    •   Staffing: Not all UVAOs were designated in writing (92 percent compliance).
    •   Training: Not all UVAOs received the required training within a 24-month period (89
        percent compliance).
    •   Command emphasis: A revised Navy Instruction to reflect the current version of the
        DoD Instruction had not yet been published.

In addition, the Navy reported as a “finding” that “not all Echelon II and command level voting
assistance program evaluations were being performed, retained, and submitted…” in accordance
with the Service VAP instruction. The Navy reported that corrective action had been taken to
correct all deficiencies. The Navy IG 2012 VAP report stated that “[o]verall, the [Navy
Inspector General] finds the Navy’s Voting Assistance Program compliant and effective.”

In our review, we observed that the Navy did have a VAP, appropriately assigned personnel to
VAP duties, conducted continual oversight of the VAP, identified areas for improvement, and
implemented corrective actions. Therefore, we concur with the Navy IG determination that the
Navy was compliant with VAP statutes and regulations. The Navy IG concluded that the Navy
VAP program was effective based on a qualitative assessment of compliance with the Navy VAP
regulation, as well as the responses of VAOs during interviews or to surveys. The Navy IG
reported that their VAP program was effective, but no metrics were associated with their


                                                       7
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


conclusion. Further, we determined that no metrics had yet been clearly defined by the Services
or FVAP Office to measure VAP effectiveness. In observation 3 of this report, we discuss
measuring VAP effectiveness in further detail.

Air Force Voting Assistance Program Compliance
The Inspector General of the Air Force issued its “2012 Air Force Inspector General’s Inspection
Report: USAF Federal Voting Assistance Program” (Air Force IG 2012 VAP report), which
provided a summary of their assessment of Air Force compliance with VAP statutes and
requirements.

The Air Force reported that they inspected their VAP at all levels during Major Command IG
inspections. They noted that in CY 2012, Major Command Inspectors General inspected the
FVAP at 66 Wings, 13 Groups, 5 Numbered Air Forces, 41 Squadrons/Flights, 4 Detachments,
and 5 Field Operating Agencies. In addition, there were 134 FVAP inspections and 12 reported
deficiencies. They noted that “[e]valuations were made by conducting personal interviews with
[IVAOs] and [UVAOs] that reviewed program implementation and management.”

Of the12 minor deficiencies identified by the Air Force, corrective actions had been taken to
address and close 9 of them. Three minor deficiencies were open with tentative corrective
actions reported by the Air Force IG. The minor deficiencies reported were of the following
types:

    •   Training: IVAOs did not ensure that UVAOs were trained within 90 days of appointment
        during even-numbered years.
        o Air Force IG Update: IVAOs are in the process of implementing the required training
            of UVAOs.
    •   Material Distribution: UVAOs did not provide registration material and a briefing on the
        absentee voting process at all individualized, newcomer, treatment, and orientation
        programs.
    •   Material Distribution: UVAOs did not offer Standard Form 76, Federal Post Card
        Application, to voting age dependents of squadron members.
        o Air Force IG Update: IVAO will provide forms to UVAOs for distribution to Service
            Members.
    •   Reporting: UVAOs did not provide electronically delivered Federal Post Card
        Applications that utilized read or delivery receipts to unit personnel, thus were unable to
        transcribe to a permanent document to prove the percentage of unit contact complete.

The Air Force Office of the IG stated that all 34 deficiencies identified in the CY 2011 Air Force
IG FVAP report had been corrected. They concluded that as a result of these inspections, the Air
Force was in compliance with VAP statutes and regulations, expressing confidence in the
effectiveness of the Air Force VAP and that Service members had the resources required to
exercise their right to vote. The Air Force IG concluded that the Air Force VAP program was
effective based on a qualitative assessment of compliance with VAP statutes and regulations,
interviews, and surveys.




                                                       8
Assessment of Voting Assistance Programs for CY 2012       Report No. DoDIG-2013-074   April 29, 2013


In our review, we observed that overall, the Air Force had an active VAP, appropriately assigned
personnel to accomplish VAP duties, conducted thorough oversight of the VAP, identified areas
for correction or improvement, and quickly implemented corrective actions to problems
identified. Therefore, we concur with the Air Force IG determination that the Air Force was
compliant with VAP statutes and regulations. The Air Force IG expressed confidence that their
VAP program was effective, but no metrics were associated with their conclusion. Further, we
determined that no metrics had yet been clearly defined by the Services or FVAP Office to
measure VAP effectiveness. In observation 3 of this report, we discuss measuring VAP
effectiveness in further detail.

Marine Corps Voting Assistance Program Compliance
The Inspector General of the Marine Corps issued its “Annual Assessment by the Inspector
General of the Marine Corps of the United States Marine Corps’ Voting Assistance Program for
Calendar Year 2012” (Marine Corps IG 2012 VAP report) in accordance with 10 U.S.C. § 1566.
The Marine Corps IG concluded in their report that the Marine Corps VAP complied with VAP
statutes and regulations, to include Marine Corps Order 1742.1A, and that its annual assessment
verified the Marine Corps had an effective VAP.

The Marine Corps IG stated that the Marine Corps employed a continuous assessment
methodology to assess the Marine Corps VAP program for compliance and effectiveness as well
as to determine if IVA offices were operational. The Marine Corps IG stated that the Marine
Corps VAP inspections used an ongoing cycle of inspections for every Marine Forces Command
on a biennial basis and for every Marine Expeditionary Force, installation, and Major
Subordinate Command on a triennial basis. In addition, each Commanding General had their
own Commanding General Inspection Program that inspected their units biennially.

To ensure oversight of the Marine Corps VAP, both the Marine Corps IG and Commanding
General Inspection Program conducted inspections using a standardized Functional Area
Checklist. Both the Marine Corps IG and the Command inspection processes ensured that the
Marine Corps VAP had VAOs in place by conducting interviews with Major Command Voting
Officers, IVAOs, UVAOs, Commanding Officers, and with Marines randomly selected from
Marine units.

The Marine Corps inspection teams reviewed documents and procedures to ensure compliance
with VAP statutes and regulations. The Marine Corps inspection teams also inspected facilities
to ensure that voting assistance materials were displayed in accordance with Marine Corps Order
1742.1A. Each inspection was graded as: Mission Capable, Mission Capable with
discrepancies, Mission Capable with findings, or Non-Mission Capable. The Marine Corps IG
stated that the following minor discrepancies were found:

    •   Communication: Voting Assistance Officers were not always identified in the local
        phone directory. They reported that this issue was typically remedied “on the spot”
        during the course of unit inspections.
    •   Material distribution: UVAOs did not ensure individuals were offered Federal post card
        application forms after completion of permanent change of station moves. This issue was



                                                       9
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


        also typically remedied "on the spot" by adding the Voting Assistance Officer to the
        check-in sheet.
    •   Training: Not all VAOs completed the required annual training. The Marine Corps IG
        stated that with the implementation of online training via MarineNet, training compliance
        would improve.
    •   Command emphasis: The current Marine Corps Order covering the VAP, which is ten
        years old, is being revised as a direct result of the September 2012 issuance of the FVAP
        DoDI. The Marine Corps IG anticipated the release of a revised Marine Corps Order
        regarding VAP in 2013.

The Marine Corps IG concluded in their VAP assessment report that they were “confident that
service members were aware of all 2012 voting events and were provided with assistance and
documentation for all absentee voting requirements.”

In our review, we observed that the Marine Corps had an active VAP, appropriately assigned
personnel to VAP duties, and conducted continuous oversight of the VAP. While no
discrepancies were found for CY 2012, past Marine Corps VAP assessments reported
discrepancies and corrective actions, which confirmed proper program oversight. We concur
with the Marine Corps IG determination that the Marine Corps was compliant with VAP statutes
and regulations. The Marine Corps IG reported that their VAP was effective in assisting eligible
voters, but no metrics were associated with their conclusion. Further, we determined that no
metrics had yet been clearly defined by the Services or FVAP Office to measure VAP
effectiveness. In observation 3 of this report, we discuss measuring VAP effectiveness in further
detail.




                                                       10
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                      Observations

The following observations cover areas associated with shared issues in DoD Voting Assistance
Program implementation:

    •   DoD Staffing Requirements for Unit Voting Assistance Officers
    •   Outdated Regulatory Requirements
    •   Measurement of Voting Assistance Program Effectiveness
    •   Installation Voter Assistance Office Issues




                                                       11
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       12
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Observation 1. DoD Staffing Requirements for Unit Voting
Assistance Officers
It appears that the number of VAOs at some installations may exceed the number of VAOs
necessary to address Service members’ current voting assistance needs.

This occurred because VAO staffing requirements implemented by the Services, accomplished in
accordance with VAP regulations, were based on a model for providing in-person voting
assistance to Service members at the unit level. This was done prior to the establishment of IVA
offices, and before the introduction of Internet-based technological voting assistance services
that are now provided by DoD, State, and local authorities.

As a result, having greater manpower and resources to accomplish the UVAO mission may be an
inefficiency that could divert personnel resources from the accomplishment of a unit's primary
Military mission.

Applicable Criteria.
    •   DoD Instruction 1000.04, “Federal Voting Assistance Program,” September 13, 2012,
        enclosure 4.

IVAO and UVAO Requirements
Current statutes and regulations require IVA offices (a physical location), IVAOs (persons), and
UVAOs at “each” installation, meaning a fixed location, and a specific person designated as the
IVAO. Further guidance by the DoD FVAP Office adds requirements for IVA office telephone
numbers, voicemail, and e-mail addresses.

The primary intent of the requirements are to ensure the presence of an installation level office
and officer to provide voting registration materials, absentee ballot request forms, and other
assistance at each installation where Service members (and overseas voters) are stationed.
Voting materials and assistance can be provided in hard copy, in-person, via postal mail, or
electronically, through the Internet or e-mail. The method of obtaining the information is up to
the Service member.

The Services reported that at some installations there was an IVA office with an IVAO, and
several (in some cases, 100 or more) UVAOs. The FVAP DoDI requires each unit with at least
25 persons to have a UVAO, and recommends an additional UVAO for each additional 50
persons in the unit.

Role of Social Media in Providing Voting Assistance
Because of the widespread availability of smart phones, tablets, computers, along with the
development of social media Web sites, an increasing number of people have access to and use
the Internet, e-mail, and social media venues to communicate, find information, and conduct
business. This has resulted in widespread change in the methods the Federal Government,
including DoD, uses to distribute information that allows for improved accessibility to
information 24 hours a day, 7 days a week.


                                                       13
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Service members have been increasingly using computer technology to seek voting-related
assistance via venues such as Facebook and Twitter, as well as access to DoD voter assistance
Web sites provided by the FVAP office and Military Services. This voting assistance
information includes:

    •   voter awareness materials,
    •   deadlines for registering or requesting an absentee ballot,
    •   rules and procedures for voter registration or absentee ballot requests,
    •   means to download and complete voting-related forms, and
    •   contact information for VAOs or State Election offices.

Through the use of the Internet, e-mail, and social media, IVAOs and UVAOs are now capable
of consistently extending indirect voting assistance support to the Service personnel in the units
for which they are responsible. The demand for face-to-face meetings for information exchange
or assistance from UVAOs may therefore have been diminished.

If so, the FVAP DoDI requirement to establish one UVAO per 25-Service member, plus its
recommendation for an additional UVAO for each additional 50 members in the unit may exceed
the number required to address the demand for voting assistance services. To determine the
extent to which Service members depend on the current number of required UVAOs to receive
their voting assistance, surveys may be useful to assess the means by which Service members are
actually requesting voting assistance from all DoD sources, including UVAOs.

Recommendations, Management Comments, and Our
Response
Redirected and Revised Recommendation
As a result of discussions with the FVAP Office after the release of our draft report, we
determined that the FVAP DoDI did allow the Services sufficient flexibility in determining
UVAO staffing requirements. We redirected the action for draft Recommendation 1 by
removing the FVAP Office as an action office, and replaced it with the Military Services. We
also revised draft Recommendation 1.a. for clarity.

1. The Adjutant General, Army; Commander, Navy Installation Command; Director of Air
Force Services; and Deputy Commandant of the Marine Corps for Manpower and Reserve
Affairs:
        a. Periodically assess the means by which Service members request and receive voting
assistance, including the impact of the use of information technology.
       b. Based on that assessment, revise their Service’s Voting Assistance Officer staffing
requirements in accordance with Department of Defense Instruction 1000.04, “Federal Voting
Assistance Program,” to be consistent with reassessed staffing needs.




                                                       14
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



Management Comments
The Office of the Adjutant General of the Army; the Office of the Commander, Navy
Installations Command; the Secretary of the Air Force Office of the IG; as well as the Office of
the Director, Marine and Family Programs Division, Headquarters, U.S. Marine Corps,
concurred with our Recommendation 1.a., and 1.b. They stated that they were in coordination
with the DoD FVAP Office and other Services to evaluate current methods for providing voting
assistance, and that they intended to continuously evaluate their VAO staffing requirements.

Our Response
The comments of the Office of the Adjutant General of the Army; the Office of the Commander,
Navy Installations Command; the Secretary of the Air Force Office of the IG; as well as the
Office of the Director, Marine and Family Programs Division, Headquarters, U.S. Marine Corps
are responsive to the recommendation, and no further comments are required.




                                                       15
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       16
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Observation 2. Outdated Regulatory Requirements
The Service VAP regulations were outdated and did not address all applicable matters in DoD
VAP guidance.

This occurred because the Services had not completed their review and published revised Service
VAP regulations to maintain currency with the recently issued FVAP DoDI or issue interim
guidance pending completion of their new VAP regulations.

As a result, the Services could not verify that they were addressing all current and relevant areas
of VAP compliance or ensure that they were providing optimal voting assistance to Service
members.

Applicable Criteria.
    •   Public Law 111-84, title V, subtitle H, “The Military and Overseas Voter Empowerment
        Act of 2009” (MOVE Act)
    •   DoD Instruction 1000.04, “Federal Voting Assistance Program,” September 13, 2012.
    •   Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004.
    •   Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting Assistance
        Program,” May 15, 2007.
    •   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10, 2003.
    •   Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,” May
        14, 2002.
    •   DoD Instruction 5025.01, “DoD Directives Program,” September 26, 2012.
    •   Army Regulation 25-30, “The Army Publishing Program,” March 27, 2006.
    •   Chief of Naval Operations Instruction 5215.17, “Navy Directives Issuance System,” June
        13, 2005.
    •   Air Force Instruction 33-360, “Publication and Forms Management,” February 7, 2013.
    •   Marine Corps Order 5215.1K, “Marine Corps Directives Management System,” May 10,
        2007.

To implement the MOVE Act requirements, the FVAP DoDI changed the VAP requirements
toward the end of the Services’ CY 2012 VAP review cycles.

Each Service had previously published internal guidance directing periodic review of Service
regulations to ensure that they implemented current DoD requirements. And, the Services stated
in their VAP reports that they were in the process of revising their VAP regulations to bring
them into conformity with the FVAP DoDI. But they did not anticipate publication before the
Fall of 2013. The Services had issued interim guidance to address the new requirements brought
about by the MOVE Act as well as the FVAP DoDI.

Because their original guidance was no longer current, the Services retained some outdated VAO
requirements as part of their inspections. One example was a prior requirement for the Services
to report VAO contact information to base telephone operators. Both the Army and Navy IG
reports stated that base telephone operators no longer provided IVA office contact information



                                                       17
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


(names, e-mail addresses, and telephone numbers) because many installations have replaced base
telephone operators with advanced, automated telephone systems. The base operator notification
requirement was removed with the September 2012 publication of the FVAP DoDI.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of discussions with the Military Services IGs and Senior Service Voting
Representatives, we revised the draft recommendation 2.a. and 2.b., by deleting references to
Department of Defense 4525.6-M, “Department of Defense Postal Manual.”

2. The Adjutant General, Army; Commander, Navy Installation Command; Director of Air
Force Services; and Deputy Commandant of the Marine Corps for Manpower and Reserve
Affairs:
        a. Issue interim Military Service guidance to implement Department of Defense
Instruction 1000.04, “Federal Voting Assistance Program.”
      b. Revise Military Service Voting Assistance Program regulations to implement
Department of Defense Instruction 1000.04, “Federal Voting Assistance Program.”

Management Comments
The Office of the Adjutant General of the Army; the Office of the Commander, Navy
Installations Command; the Secretary of the Air Force Office of the IG; as well as the Office of
the Director, Marine and Family Programs Division, Headquarters, U.S. Marine Corps concurred
with Recommendation 2.a., and provided their voting action plans and other supporting
documents as part of their comments to the draft report to demonstrate that they had provided
interim guidance while their Service VAP guidance was being revised.

In response to Recommendation 2.b., the Commandant of the Marine Corps stated that they had
issued Marine Corps Order 1742.1B, “Voting Assistance Program,” on April 1, 2013, which
addressed the changes to VAP requirements brought about by the MOVE Act and the issuance of
the FVAP DoDI. The Army, Navy, and Air Force stated that they were in the process of revising
their VAP regulations to bring them into conformity with the FVAP DoDI. They do not
anticipate publication before the Fall of 2013.

Our Response
The comments of the Office of the Adjutant General of the Army; the Office of the Commander,
Navy Installations Command; the Secretary of the Air Force Office of the Inspector General; as
well as the Office of the Director, Marine and Family Programs Division, Headquarters, U.S.
Marine Corps are responsive to Recommendation 2.a. The Services provided their interim VAP
guidance. No further comments are required.




                                                       18
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


The comments of the Office of the Director, Marine and Family Programs Division,
Headquarters, U.S. Marine Corps are responsive to Recommendation 2.b. and no further
comments are required.

We found that the Army, Navy, and Air Force are responsive to Recommendation 2.b., but had
not yet published their revised regulation. We request that they provide their Service VAP
regulation to us when published.




                                                       19
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       20
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Observation 3. Lack of Clearly Defined Performance
Measures to Assess Effectiveness of DoD Voting Assistance
Programs
While the FVAP Office and Military Services have developed and applied some VAP goals and
metrics, they are not sufficient to be able to comprehensively evaluate and report on the
effectiveness of program accomplishment.

This occurred because while the DoD FVAP office has identified some voting assistance activity
goals and metrics consistent with congressional intent, it has not aligned its activity to outcome-
focused goals to ensure its activity is focused on continually improving program performance
and effectiveness. Further, the DoD FVAP Office has not provided sufficient guidance to the
Military Services for them to comprehensively assess the effectiveness of their VAP
performance, nor coordinated implementation with them.

As a result, although the Services reported the results of compliance inspections of their
respective VAP programs with indicated levels of required activity, the metrics did not clearly
show the actual effectiveness of program performance with respect to specific VAP goals.

Applicable Criteria.
    •   42 U.S.C. § 1973ff et seq. This statute requires the Presidential designee (delegated
        within DoD by the Secretary of Defense to the Under Secretary of Defense for Personnel
        and Readiness - DoD FVAP Office) to annually:

        o   Assess the effectiveness of its online portals of information.
        o   Assess the absent Uniformed Services voter notification program.
        o   Assess voter registration and participation by uniformed voters.
        o   Assess voter registration and participation by non-military overseas voters.
        o   Describe the cooperation between States and the Federal Government.
        o   Describe the utilization of voting assistance programs.

    •   Section 1973gg, title 42, United States Code (42 U.S.C. § 1973gg [2012]) “National
        Voter Registration.” Two of the purposes of 42 U.S.C. § 1973gg are to: establish
        procedures that will increase the number of eligible citizens who register to vote in
        elections for Federal office, and to make it possible for Federal, State, and local
        governments to implement this subchapter in a manner that enhances the participation of
        eligible citizens as voters in elections for Federal office.

    •   10 U.S.C. § 1566 requires the Inspectors General of the Army, Navy, Air Force, and
        Marine Corps to annually review compliance of their Service’s VAPs; review the
        effectiveness of those Military Service and FVAP Office programs; and report results to
        the DoD IG in time to be reflected in the DoD IG annual report. Section 1566, title 10
        U.S.C. also requires the DoD IG to report to Congress not later than March 31 of each
        year on the VAP compliance of the Army, Navy, Air Force, and Marine Corps, along
        with the effectiveness of VAPs during the preceding calendar year.


                                                       21
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074             April 29, 2013




    •   DoD Instruction 1000.04, “Federal Voting Assistance Program,” September 13, 2012.
        Enclosure 3, paragraph m. of this guidance directs the FVAP Office to “Prescribe the
        required voting program metrics through coordination with the DoD Components and
        uniformed services to be used in evaluating their individual voting assistance programs,
        and report on compliance with those metrics.

Measuring Effectiveness in Achieving Voting Assistance Program
Goals
To assess VAP effectiveness during the preceding calendar year, we reviewed the Service IG
2012 VAP reports. We also reviewed the most recent FVAP report, “2011 Annual Report on the
Effectiveness of Activities and Utilization of Certain Procedures,” (July 2012); the “2010 Post
Election Survey Report to Congress,” (September 2011); “Defense Human Resources Activity
Operation and Maintenance, Defense-Wide Fiscal Year 2013 Budget Estimates, Performance
Criteria and Evaluation Summary: Federal Voting Assistance Program,” (February 2012); and
the “FVAP Office Strategic Plan for Fiscal Years 2010-2017,” (revised May 15, 2011).

We found that the FVAP Office “Measures of Effect and Performance” recommended to the
Military Services did have metrics. They include counting the number of:

    •   Military Personnel, dependents, or civilians assisted;
    •   forms mailed out;
    •   total persons assigned to IVA offices; and
    •   VAO personnel reported being trained within 90 days.

However, these metrics did not measure progress toward achieving specific VAP performance
goals. As a consequence, their usefulness in assessing program effectiveness or guiding
management decision-making was limited.

Defining performance goals with time-bound, targeted levels of performance that are uniform for
each of the Service VAP programs would enable a more precise determination of whether the
program’s activities achieved its goals, and provide insights into whether those activities
performed better than alternative activities or no activity at all. Federal guidance on performance
management states that:

        Performance measurement is another critical analytical and management tool. By tracking inputs, outputs,
        outcomes and measures of efficiency, programs can generate data that managers can then use to improve
        program performance. Simply collecting performance data, after all, is unlikely to change anything in
        itself. Performance data are useful when the data is high quality and actively used to ask and answer
        questions about what’s being achieved, identify the most pressing program challenges, set goals, monitor
        results, and celebrate progress. This is the process of moving from performance measurement to
        performance management. 2




2
 Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014, Ch. 8: Program Evaluation
and Data Analysis, p. 91.


                                                       22
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


Further defining VAP goals and associated metrics in terms of performance would generate
relevant insight into the program’s performance that according to Federal and DoD budgeting
requirements, should be incorporated in an evaluation of VAP as funding requests are developed.

Section 1115, title 31, United States Code, “Federal government and agency performance plans”
provides one means to address the determination of the effectiveness of VAP performance. This
statute requires executive agencies to establish a performance plan covering each program
activity set forth in the budget that shall:

    •   Establish performance goals to define the level of performance to be achieved during the
        year in which the plan is submitted and the next fiscal year.
    •   Express such goals in an objective, quantifiable, and measurable form.

For Federal programs without specific line items in agency budgets, such as the Military Service
VAP programs, it is still useful to establish program goals and associated performance indicators
that allow program management or an external reviewer to assess how the organizations’ VAP
activities contributed to enhanced Service member opportunities for voter registration and
participation by increasing access to information about the absentee voting process along with
other voting related materials and information.

DoDI 1000.04 directs the Director, Federal Voting Assistance Program Office to “prescribe the
required voting program metrics through coordination with DoD Components and uniformed
services to be used in evaluating their individual voting assistance programs, and report on
compliance with those metrics.”

The Military Service Inspectors General reported significant VAP activity and compliance
oversight reviews on the part of their respective Services. However, in the absence of clear DoD
guidance, Military Service VAP reports for CY 2012 provided to DoD IG primarily addressed
VAP program compliance but not effectiveness.

The DoD IG has not emphasized a determination of VAP effectiveness in its previous annual
reports. However, in order to evaluate more comprehensively the results of DoD voting
assistance programs, congressional committees have indicated that measures of VAP
effectiveness should be included, beginning with the DoD IG CY 2013 VAP report to be
published in March 2014.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of discussions with the FVAP Office, Military Services IGs, and Senior Service
Voting Representatives, we revised draft Recommendation 3.a.1. and 3.a.2. for clarity. We
revised draft Recommendation 3.b. to make it conditional on the Services’ receipt of VAP
performance goals from the FVAP Office.




                                                       23
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



3.a. The Director, Federal Voting Assistance Program Office, on behalf of the Under Secretary
of Defense for Personnel and Readiness, coordinate with the Adjutant General, Army;
Commander, Navy Installation Command; Director of Air Force Services; and Deputy
Commandant of the Marine Corps for Manpower and Reserve Affairs to:
        1. Enhance performance goals and indicators for annual assessment of voting assistance
activities to enable measurement of program effectiveness.
       2. Provide guidance to the Military Services regarding voting assistance program
performance goals and indicators to enable them to measure program effectiveness at the Service
level.
3.b. The Army, Navy, Air Force, and Marine Corps Inspectors General: upon receipt of the
performance goals and indicators from the Federal Voting Assistance Program Office, include
an evaluation of their respective voting assistance programs’ effectiveness in their annual voting
assistance program reports to the Department of Defense Inspector General.

Management Comments
The FVAP Office concurred with Recommendation 3.a.1. and 3.a.2., stating that they had begun
the process based on a prior recommendation from the DoD IG. 3 The FVAP Office stated that
they have worked with the Services on realistic measures of effectiveness and performance, and
issued guidance memoranda to the Service Voting Representatives of the Military Departments
in 2010 and 2011.

The FVAP Office stated that while they agreed that the collection of metrics to measure
effectiveness can be improved, they stated that their continued relationship working with the
Services on an evolving data collection effort has led to many improvements and efficiencies.
They also stated that they are currently engaged with a Federally Funded Research and
Development Center to help define new metrics and refine those currently collected.

The Office of the Adjutant General of the Army; the Office of the Naval IG; the Secretary of the
Air Force Office of the IG; and the Marine Corps IG concurred with Recommendation 3.b., and
stated that they would report on the effectiveness of their Service’s VAP program in their annual
VAP reports to the DoD IG. Further, they stated that their Service’s VAP will apply
performance goals and indicators recommended by the FVAP Office to assess program
effectiveness.

The Navy Inspector General expressed concern, however, that the results from their current
performance goals and indicators are subjective in nature and can show activity, but not program
effectiveness.

Our Response
The comments of the FVAP Office are responsive to Recommendation 3.a.1., and 3.a.2.
However, while they have been developing metrics, which they refer to as “Measures of Effect

3
 DoD IG Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance
Program,” September 27, 2010.


                                                       24
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


and Performance,” our assessment found them to be measures of activity. Therefore, the
usefulness of their metrics in the assessment of program effectiveness is limited because they are
not connected with performance goals or performance management. We request that the FVAP
Office provide us with copies of VAP performance goals and indicators that enable useful
measurement of VAP program performance, as well as copies of guidance they provide to the
Military Services regarding VAP performance goals and indicators.

The comments of the Office of the Adjutant General of the Army; the Office of the Naval IG; the
Secretary of the Air Force Office of the IG; and the Office of the Marine Corps IG are responsive
to Recommendation 3.b. and no further comments are required.




                                                       25
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       26
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074        April 29, 2013




Observation 4. IVA Offices
The FVAP Office and the Military Services had not clearly indicated why one particular
installation had an IVA office, where other installations did not have an IVA office.

This occurred because the FVAP Office and the Military Services had not defined “installation
for the purpose of providing appropriate voting assistance to Service members” through the
establishment of an IVA office.

Since neither the FVAP Office, nor the Military Services had defined an installation for the
purposes of voting assistance to Service members, it was not feasible to determine whether each
installation that merited an IVA office had one in accordance with VAP statutes and regulations.

Applicable Criteria:
    •   Public Law 111-84, title V, subtitle H, “The Military and Overseas Voter Empowerment
        Act of 2009” (MOVE Act).
    •   10 U.S.C. § 1566a, (a), “Designation of Offices on Military Installations as Voter
        Assistance Offices.”
    •   42 U.S.C. § 1973ff 2b., “Federal Voting Assistance Program Improvements.”
    •   DoD Instruction 1000.04, “Federal Voting Assistance Program,” September 13, 2012,
        enclosure 3, section f; and enclosure 4, section 2.c.

Defining an Installation for the Purposes of Establishing a Voter
Assistance Office
One of the most significant provisions of the MOVE Act and DoDI 1000.04 was a requirement
for the Military Services to establish an IVA office on every installation under their jurisdiction
(except for installations in a warzone) to perform certain voting assistance functions. We
concluded in our August 2012 DoD IG MOVE Act report that the Services had not established
all of the IVA offices as intended by the Act. 4

In response to our August 2012 DoD IG MOVE Act report, the FVAP Office stated in March
2013 that they “are in the process of examin[ing] the Department’s voter assistance
responsibilities and the role played by Installation Voter Assistance Offices. The results of this
research are expected in early 2014….”

It is important that the Military Services establish criteria to support their definitions of an
installation for the purposes of voting assistance, and that the rationale behind the criteria are
clear and consistent with VAP statutory and regulatory requirements.




4
 Public Law 111-84, title V, subtitle H, “The Military and Overseas Voter Empowerment Act of 2009” (MOVE
Act), section 590,”Federal Voting Assistance Program Improvements.”


                                                       27
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074             April 29, 2013



Recommendations, Management Comments, and Our
Response
Redirected and Revised Recommendation
As a result of discussions with the FVAP Office, Military Services IGs, and Senior Service
Voting Representatives, we revised draft Recommendation 4.a. and 4.b. by combining them into
a single recommendation to improve clarity, and we redirected the action by removing the FVAP
Office as an action office, replacing it with the Military Services.

4. The Adjutant General, Army; Commander, Navy Installation Command; Director of Air
Force Services; and Deputy Commandant of the Marine Corps for Manpower and Reserve
Affairs develop Service-specific definitions of an installation, with associated criteria, for the
purposes of voting assistance, and provide it to the Federal Voting Assistance Program Office
for publication on their Web site.

Management Comments
The Office of the Adjutant General of the Army; the Office of the Commander, Navy
Installations Command; the Secretary of the Air Force Office of the IG; as well as the Office of
the Director, Marine and Family Programs Division, Headquarters, U.S. Marine Corps concurred
with our recommendation.

The Office of the Adjutant General of the Army stated that they would work with Installation
Management Command, Army Materiel Command, and the Assistant Secretary of the Army to
determine the appropriate definition of an installation in accordance with the Military and
Overseas Voter Empowerment Act with a tentative completion date in fall 2013. Further, the
Army will coordinate with FVAP in developing the DoD approved definition, and will provide
the definition to the FVAP Office.

The Office of the Commander, Navy Installations Command restated their position that the Navy
defines an Installation for the purposes of voting assistance as “A [Secretary of the Navy]
approved …Shore Activity that holds property, has a mission, and has a [Commanding Officer or
Officer in Charge].” The Navy stated that they have provided this definition to the FVAP Office.

In follow-on discussion with the Office of the Commander, Navy Installations Command, they
provided clarification that for Service members at Naval Activities that are not defined as
installations, and therefore, do not have IVA offices, there are several resources available to
receive voting assistance. They stated that such Naval Activity Commands will have UVAOs
assigned to maintain a command-level Voting Assistance Program.

The Secretary of the Air Force Office of the IG stated that the Air Force took the following
definition of "installation" from Air Force Policy Document 10-5, “Basing,” and applied it to the
Voting Assistance Program:

        “Major Installation (Air Force Base, Air Base, Air Reserve Base, or Air Guard Base). A self-
        supporting center of operations for actions of importance to Air Force combat, combat support, or


                                                       28
Assessment of Voting Assistance Programs for CY 2012         Report No. DoDIG-2013-074             April 29, 2013


        training activities. Operated by an Active, Reserve, or Guard unit of wing size or larger with all
        land, facilities, and organic support needed to accomplish the unit mission. Must have real
        property accountability through ownership, lease, permit, or other written agreement for all real
        estate and facilities. Agreements with foreign governments which give the Air Force jurisdiction
        over real property meet this requirement. Shared-use agreements (as opposed to joint-use
        agreements where the Air Force owns the runway) do not meet the criteria to be major
        installations.”

Follow-on discussion with the Secretary of the Air Force Office of the IG provided clarification
regarding that Air Force “Major Installations” had IVA offices, with Royal Air Force Station
Alconbury, Creech Air Force Base, and Arnold Air Force Station, as well as joint bases shared
with another Service listed as exceptions.

The Office of the Director, Marine and Family Programs Division, Headquarters, U.S. Marine
Corps stated that they would develop a written definition of an installation for the purposes of
voting assistance, and provide it to the FVAP Office.

Our Response
The comments of the Office of the Adjutant General of the Army are responsive to
Recommendation 4.

The comments of the Office of the Commander, Navy Installations Command are partially
responsive to Recommendation 4. The Navy provided a definition of an installation as “a
[Secretary of the Navy] approved shore activity that holds property, has a mission, and has a
[Commanding Officer or Officer in Charge]” and stated that it is used for voting assistance.
However, this definition does not fully address our request that they develop a Service-specific
definition of an installation, with associated criteria, for the purposes of voting assistance.

Additionally, there are several Navy bases that appear to meet the definition provided by the
Navy, but do not have an IVA office. For example, there are no IVA offices on Navy bases such
as Naval Support Activity Philadelphia, Naval Air Station Willow Grove, the Naval Academy,
Naval Surface Warfare Center Carderock, or Naval Support Station Naples, among others. All
of these hold property, have a mission, and have a Commanding Officer or Officer in Charge,
which would appear to qualify them as an installation according to the Navy’s definition. The
Navy did not explain why they do not consider them as installations for the purposes of
providing voting assistance.

The comments of the Secretary of the Air Force Office of the IG are partially responsive to
Recommendation 4. The Air Force provided a definition of an installation based on Air Force
Policy Document 10-5, “Basing,” stated that it applied to voting assistance and that the Air Force
SVAO will forward criteria used to define the term. However, the Air Force definition does not
fully address our request that they develop a Service-specific definition of an installation, with
associated criteria, for the purposes of voting assistance.

Additionally, there are Air Force bases that appear to meet the definition provided by the Air
Force, but do not have an IVA office. For example there are no IVA offices on Cavalier Air
Force Station, or Thule Air Base. Both of these appear to be self-supporting centers of



                                                       29
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013


operations that hold property, which would appear to qualify them as an installation according to
the Air Force’s definition. The Air Force did not explain why they do not consider them as
installations for the purposes of providing voting assistance.

The comments of the Office of the Director, Marine and Family Programs Division,
Headquarters, U.S. Marine Corps are responsive to Recommendation 4.

The MOVE Act states that the “Secretaries of the Military departments shall designate offices on
installations under their jurisdiction.” The FVAP DoDI more specifically states that IVA Offices
are to be established on “each” installation.

Based on the Services’ responses, it is apparent that they have not developed a definition of an
installation that specifically applies to the provision of voting assistance, nor provided a clear
explanation of why certain Military bases do not have an IVA office.

Therefore, the Services should develop their definitions and coordinate with the FVAP office, as
the office of primary responsibility for DoD voting assistance policy. We request that the Navy
and Air Force respond with their plans to provide a definition of an installation that specifically
applies to the provision of voting assistance, and a clear explanation of why certain Navy or Air
Force bases do not have an IVA office within 30 days of publication of this report.

In response to this report, we request that each of the Military Services provide to the DoD IG
their Service’s definition of an installation that specifically applies to the provision of voting
assistance, along with its supporting rationale and criteria, which clearly describes why certain
installations have an IVA office while others do not.




                                                       30
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Appendix A. Prior Report Coverage
During the last 7 years, the Government Accountability Office and the DoD IG have issued
numerous reports on Military and overseas absentee voting assistance programs. Unrestricted
GAO reports can be accessed over the Internet at www.gao.gov. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/PUBS/index.html.

GAO
GAO Report No. GAO-10-476, “Elections: DOD Can Strengthen Evaluation of Its
Absentee Voting Assistance Program,” June 17, 2010.

GAO Report No. GAO-07-774, “Elections: Action Plans Needed to Fully Address
Challenges in Electronic Absentee Voting Initiatives for Military and Overseas Citizens,”
June 14, 2007.

GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services,
United States Senate, “Elections: DOD Expands Voting Assistance to Military Absentee
Voters, but Challenges Remain,” September 28, 2006.

GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
April 7, 2006.

DoD IG
DoD IG Report No. DoDIG-2012-123, “Assessment of the Federal Voting Assistance Program
Office Implementation of the Military and Overseas Voter Empowerment Act,” August 31,
2012.

DoD IG Report No. DoDIG-2012-068, “Assessment of Voting Assistance Programs for
Calendar Year 2011,” March 30, 2012.

DoD IG Report No. SPO-2011-006, “2010 Evaluation of the DoD Federal Voting
Assistance Program (FVAP),” March 22, 2011.

DoD IG Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance
Program,” September 27, 2010.

DoD IG Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance
Program,” April 30, 2009.

DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance
Program in the Department of Defense,” March 31, 2008.

DoD IG Report No. IE-2007-004, “2006 Evaluation of the Voting Assistance Program,” March
31, 2007


                                                       31
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       32
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Appendix B. Acronyms
DoD IG                          Department of Defense Inspector General
DoDI                            Department of Defense Instruction
FVAP                            Federal Voting Assistance Program
IG                              Inspector General
IVA                             Installation Voter Assistance
IVAO                            Installation Voting Assistance Officer
MOVE                            Military and Overseas Voter Empowerment
UOCAVA                          The Uniformed and Overseas Citizens Absentee Voting Act
UVAO                            Unit Voting Assistance Officer
U.S.C.                          United States Code
VAP                             Voting Assistance Program
VAO                             Voting Assistance Officer




                                                       33
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank




                                                       34
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Appendix C. Management Comments
FVAP Office




                                                       35
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       36
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       37
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       38
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       39
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       40
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       41
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       42
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       43
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       44
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       45
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




The Adjutant General of the Army




                                                       46
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       47
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       48
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




Office of the Commander, Navy Installation Command




                                                       49
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       50
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       51
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



The Office of the Naval Inspector General




                                                       52
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



Secretary of the Air Force Office of the Inspector General




                                                       53
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       54
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       55
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       56
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



The Director, Marine and Family Programs Division,
Headquarters, U.S. Marine Corps




                                                       57
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013




                                                       58
Assessment of Voting Assistance Programs for CY 2012        Report No. DoDIG-2013-074   April 29, 2013



The Marine Corps Inspector General




                                                       59
Assessment of Voting Assistance Programs for CY 2012   Report No. DoDIG-2013-074   April 29, 2013




                                  This Page Intentionally Left Blank
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
